Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL



   MEDICARE OFTEN MADE
     OVERPAYMENTS TO
 NEW ENGLAND HOME HEALTH
    AGENCIES FOR CLAIMS
     WITHOUT REQUIRED
  OUTCOME AND ASSESSMENT
   INFORMATION SET DATA
  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                       March 2014
                                                      A-01-12-00508
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

We estimated that the regional home health intermediary for six New England States made
approximately $25.1 million in Medicare overpayments because it did not deny claims that
home health agencies submitted without the required Outcome and Assessment Information
Set data, which is a condition of payment.

WHY WE DID THIS REVIEW

In 2012, the Office of Inspector General issued a report that disclosed that home health agencies
(HHAs) nationwide did not submit required Outcome and Assessment Information Set (OASIS)
data for 6 percent of HHA claims in calendar year (CY) 2009, which represented over $1 billion
in Medicare payments. Effective January 1, 2010, the Centers for Medicare & Medicaid
Services (CMS) began requiring HHAs to submit OASIS data as a Medicare condition of
payment. In its response to our report, CMS stated that it cannot enforce this requirement
because of limitations in the Medicare claims processing system. CMS stated that it is still
working on building a systematic interface of the HHA claims and OASIS submission process.
CMS contracts with four regional home health intermediaries (RHHIs) that use the Fiscal
Intermediary Shared System (FISS) to process and pay HHA claims. As a followup to our
review of CY 2009 claims taking into account the new condition of payment, we reviewed one
RHHI that processes and pays HHA claims for six New England States to determine the extent to
which it denied CY 2010 claims with missing OASIS data.

The objective of this review was to determine whether the RHHI made Medicare payments only
for claims for which HHAs had submitted accepted OASIS data.

BACKGROUND

OASIS data are a standard set of data elements used by HHA clinicians to assess the clinical
needs, functional status, and service utilization of beneficiaries receiving home health services.
CMS uses OASIS data to assign beneficiaries to the appropriate case-mix groups (which are used
to help determine payment rates), to monitor the effects on the patient care and outcome, and to
determine whether adjustments to the case-mix groups are warranted. CMS requires an HHA to
complete the OASIS data within 5 calendar days after the start of care, update and revise the
assessment and the OASIS data at least 5 days before the next 60-day episode of care, and
encode and transmit electronically OASIS data to its State survey agency within 30 days. The
HHA submits an interim claim after completing the OASIS data at the start of care to receive
60 percent of the payment for that episode and further interim claims at the beginning of any
additional episodes of care to receive 50 percent of those payments, but a final claim should be
submitted and paid only after OASIS data are updated and accepted by the State survey agency.
The State survey agency provides a final validation report, which informs the HHA whether the
OASIS data have been accepted or rejected. The HHA must fill out the CMS form CMS-1450
for both the interim claim and for the final claim. During the OASIS process, RHHIs perform
some limited periodic payment reviews and CMS maintains a Quality Improvement and
Evaluation System that tracks accepted OASIS data.



Outcome and Assessment Information Set Review of New England
Home Health Agencies for Calendar Year 2010 (A-01-12-00508)                                      i
Beginning January 1, 2010, CMS required HHAs to submit accepted OASIS data as a condition
of payment and instructed RHHIs not to pay claims that lacked OASIS data. Our audit covered
16,582 HHA claims totaling $42.8 million that were at a high risk of being overpaid because
HHAs did not submit accepted OASIS data or submitted accepted OASIS data after RHHIs paid
the claims.

WHAT WE FOUND

The RHHI paid Medicare claims for which HHAs had not submitted the required OASIS data.
Of the 100 claims that we sampled, the RHHI made payments totaling $156,722 for 65 claims
that should not have been paid. Specifically, 36 claims should not have been paid because the
HHAs had not submitted accepted OASIS data at the time of payment, and 29 claims should not
have been paid because HHAs had not submitted accepted OASIS data. We estimated that the
RHHI made approximately $25.1 million in Medicare overpayments because it did not deny
claims that HHAs had submitted without the OASIS data, which is a condition of payment.

Overpayments occurred because HHAs often had inadequate controls for the submission of
OASIS data. Furthermore, Medicare payment controls were inadequate to prevent or detect
payments to HHAs for claims that were missing accepted OASIS data. Without adequate
controls, CMS has a limited ability to prevent payments to HHAs that have not submitted
accepted OASIS data.

WHAT WE RECOMMEND

We recommend that CMS:

    •   adjust the 65 sampled claims for overpayments of $156,722 to the extent allowed under
        the law;

    •   consider reopening the 16,482 nonsampled claims for which 3,819 claims were paid
        before OASIS data were accepted and 12,663 claims that did not match to OASIS data,
        review our information on these claims, and recover any overpayments to the extent
        allowed under the law;

    •   complete the process that would allow the FISS to interface with State survey agency
        systems to identify, on a prepayment basis, HHA claims without accepted OASIS data
        submissions, which could have resulted in savings totaling $25.1 million during CY 2010
        for claims paid by one RHHI; and

    •   encourage RHHIs to conduct periodic postpayment reviews of HHA claims, which would
        include ensuring OASIS data supports claims, until sufficient prepayment controls are
        established.




Outcome and Assessment Information Set Review of New England
Home Health Agencies for Calendar Year 2010 (A-01-12-00508)                                     ii
    CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS AND
    OUR RESPONSE

    In written comments on our draft report, CMS fully concurred with recommendations one
    and three, partially concurred with recommendation two, and did not concur with our fourth
    recommendation.

    We disagree with CMS’s partial nonconcurrence with our second recommendation and its
    nonconcurrence with our fourth recommendation.




Outcome and Assessment Information Set Review of New England
Home Health Agencies for Calendar Year 2010 (A-01-12-00508)                                      iii
                                                    TABLE OF CONTENTS

INTRODUCTION ...........................................................................................................................1

       Why We Did This Review .......................................................................................................1

      Objective ..................................................................................................................................1

      Background ..............................................................................................................................1
          Medicare ..........................................................................................................................1
          Outcome and Assessment Information Set Data .............................................................1
          Data Required as a Condition of Payment ......................................................................2

      How We Conducted This Review ............................................................................................2

FINDINGS .......................................................................................................................................3

      Program Requirements .............................................................................................................3

       Payments for Claims That Lacked Accepted Data ..................................................................3
           Claims Paid Before Data Were Accepted .......................................................................3
           Claims Paid Without Accepted Data ...............................................................................4

      Inadequate Internal Controls ....................................................................................................4
           Home Health Agencies Did Not Ensure That Outcome and Assessment
              Information Set Data Were Accepted Before Submitting Claims ............................4
           Medicare Did Not Have Adequate Payment Controls ....................................................4

       Overpayments Estimates ..........................................................................................................4

RECOMMENDATIONS .................................................................................................................5

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS AND
  OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................................5

        Reopen Nonsampled Claims and Recover Overpayments .....................................................5
            CMS Comments ..............................................................................................................5
            Office of Inspector General Response.............................................................................6

        Encourage Regional Home Health Intermediaries To Conduct Periodic Postpayment
         Reviews of Home Health Agencies’ Claims .......................................................................6
            CMS Comments ..............................................................................................................6
            Office of Inspector General Response.............................................................................7




Outcome and Assessment Information Set Review of New England
Home Health Agencies for Calendar Year 2010 (A-01-12-00508)                                                                                     iv
APPENDIXES

     A: Audit Scope and Methodology ...........................................................................................8

     B: Statistical Sampling Methodology....................................................................................10

     C: Sample Results and Estimates ..........................................................................................12

     D: Centers for Medicare & Medicaid Services Comments ...................................................13




Outcome and Assessment Information Set Review of New England
Home Health Agencies for Calendar Year 2010 (A-01-12-00508)                                                                    v
                                             INTRODUCTION

WHY WE DID THIS REVIEW

In 2012, the Office of Inspector General issued a report 1 that disclosed that home health agencies
(HHAs) nationwide did not submit required Outcome and Assessment Information Set (OASIS)
data for 6 percent of HHA claims in calendar year (CY) 2009, which represented over $1 billion
in Medicare payments. Effective January 1, 2010, the Centers for Medicare & Medicaid
Services (CMS) began requiring HHAs to submit OASIS data as a Medicare condition of
payment. In its response to our report, CMS stated that it cannot enforce this requirement
because of limitations in the Medicare claims processing system. CMS stated that it is still
working on building a systematic interface of the HHA claims and OASIS submission process.
CMS contracts with four regional home health intermediaries (RHHIs) that use the Fiscal
Intermediary Shared System (FISS) to process and pay HHA claims. As a followup to our
review of CY 2009 claims taking into account the new condition of payment, we reviewed one
RHHI that processes and pays HHA claims for six New England States to determine the extent to
which it denied CY 2010 claims with missing OASIS data.

OBJECTIVE

Our objective was to determine whether the RHHI made Medicare payments only for claims for
which HHAs had submitted accepted OASIS data.

BACKGROUND

Medicare

Medicare provides health insurance coverage to people aged 65 and over, people with
disabilities, and people with end-stage renal disease. Medicare Part A pays for certain inpatient
services in hospitals, hospice care, skilled nursing facilities, and some home health care services.
CMS administers Medicare.

Outcome and Assessment Information Set Data

The OASIS is a standard set of data elements that HHA clinicians use to assess the clinical
needs, functional status, and service utilization of a beneficiary receiving home health services.
CMS uses OASIS data to assign beneficiaries to the appropriate categories, called case-mix
groups, 2 to monitor the effects of treatment on patient care and outcome, and to determine
whether adjustments to the case-mix groups are warranted. HHA beneficiaries can be classified
into 153 case-mix groups that are used as the basis for the HIPPS rate codes and represent
specific sets of patient characteristics.

1
    Limited Oversight of Home Health Agency OASIS Data (OEI-01-10-00460), issued February 2012.
2
  Case-mix groups are used as the basis for the Health Insurance Prospective Payment System (HIPPS) rate codes
used by Medicare in its prospective payment systems. Case-mix groups are designed to classify acute care
inpatients who are similar clinically in terms of resources used.

Outcome and Assessment Information Set Review of New England
Home Health Agencies for Calendar Year 2010 (A-01-12-00508)                                                      1
HHAs use OASIS data to determine how much care on average beneficiaries with the same
conditions need over a 60-day period known as an episode. CMS requires an HHA to complete a
comprehensive assessment, including OASIS data items, within 5 calendar days after the start of
care, update and revise the assessment and the OASIS data at least 5 days before the next 60-day
episode, and encode and transmit electronically OASIS data to its State survey agency within 30
days of completing the comprehensive assessment. 3 The HHA submits an interim claim after
completing the OASIS data at the start of the first episode of care to receive an initial payment of
60 percent of the rate for that episode, with the balance to be paid subsequently (42 CFR
§ 484.205(b)(1)). Initial payments of 50 percent are paid at the beginning of additional episodes
of care, with the balance paid subsequently (42 CFR § 484.205(b)(2)). HHAs must fill out the
CMS form CMS-1450 for both the interim claim and again for a final claim once the OASIS data
are accepted. The State survey agency provides a final validation report, which informs the
HHA whether the OASIS data have been accepted or rejected. 4 CMS maintains a Quality
Improvement and Evaluation System (QIES) that tracks OASIS data that the State survey agency
has accepted.

Data Required as a Condition of Payment

Effective January 1, 2010, CMS required HHAs to submit OASIS data as a condition of payment
and instructed RHHIs not to pay claims that lacked OASIS data. 5 CMS did not address whether
HHAs could resubmit denied claims for payment once HHAs had submitted accepted OASIS
data for those claims.

HOW WE CONDUCTED THIS REVIEW

Medicare made payments to HHAs in six New England States for HHA claims totaling
approximately $1 billion with dates of service in CY 2010. We limited our review to 16,582
HHA claims totaling $42.8 million that our data match showed (1) OASIS data was submitted
and accepted but only after the RHHI paid the claims or (2) did not have a record that accepted
OASIS data had been submitted. Our objective did not require an understanding or assessment
of the complete internal control structures of HHAs, CMS, the RHHI, or the State survey
agencies. Therefore, we limited our review at the HHAs to the controls related to submitting
OASIS data and the corresponding claims. We limited our review at the RHHI and CMS to
those controls relating to preventing and detecting Medicare overpayments and at the State
survey agency to controls in processing HHA OASIS data.

We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit

3
    42 CFR § 484.55(b) and (d) and 42 CFR § 484.20(a).
4
    OASIS data are rejected for errors such as missing diagnoses or procedure codes.
5
    42 CFR § 484.210(e); 74 Fed. Reg. 58110 (Nov. 10, 2009); CMS, Program Integrity Manual, chapter 3, § 3.2.3.1.


Outcome and Assessment Information Set Review of New England
Home Health Agencies for Calendar Year 2010 (A-01-12-00508)                                                     2
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, Appendix B contains the
details of our statistical sampling methodology, and Appendix C contains the details of our
sample results and estimates.

                                                   FINDINGS

The RHHI paid Medicare claims for which HHAs had not submitted the required OASIS data.
Of the 100 claims that we sampled, the RHHI made payments totaling $156,722 for 65 claims
that should not have been paid. Specifically, 36 claims should not have been paid because the
HHAs had not submitted accepted OASIS data at the time of payment, and 29 claims should not
have been paid because HHAs had not submitted accepted OASIS data. We estimated that the
RHHI made approximately $25.1 million in Medicare overpayments because it did not deny
claims that HHAs had submitted without the OASIS data, which is a condition of payment.

Overpayments occurred because HHAs often had inadequate controls for the submission of
OASIS data. Furthermore, Medicare payment controls were inadequate to prevent or detect
payments to HHAs for claims that were missing accepted OASIS data. Without adequate
controls, CMS has a limited ability to prevent payments to HHAs that have not submitted
accepted OASIS data.

PROGRAM REQUIREMENTS

CMS requires the submission of OASIS data for final claims as a condition of payment as of
January 1, 2010. 6 Additionally, CMS stated that a “contractor shall not authorize payment if the
provider fails to submit OASIS” data consistent with the HIPPS on the claim 7 and “shall deny
the claim if providers do not meet this regulatory requirement.” 8

PAYMENTS FOR CLAIMS THAT LACKED ACCEPTED DATA

Claims Paid Before Data Were Accepted

The RHHI made Medicare overpayments to HHAs for 36 claims because it made those payments
before the HHAs submitted accepted OASIS data. For these claims, the HHAs’ final validation
reports showed that the OASIS data were submitted an average of 292 days after the RHHI made
the payment. CMS’s QIES also confirmed that the HHAs had submitted the OASIS data after
payment. For 3 of these 36 claims, the HHAs also submitted OASIS data with HIPPS codes that


6
 42 CFR 484.210(e);74 Fed. Reg. 58110 (Nov. 10, 2009) and CMS, Program Integrity Manual, chapter 3, §,
3.2.3.1.
7
    CMS Transmittal 343, June 18, 2010.
8
    CMS, Program Integrity Manual, chapter 3, § 3.2.3.1.


Outcome and Assessment Information Set Review of New England
Home Health Agencies for Calendar Year 2010 (A-01-12-00508)                                              3
did not match the HIPPS codes on the paid claims. Medicare overpaid HHAs $94,425 for these
36 claims.

Claims Paid Without Accepted Data

The RHHI made Medicare overpayments to HHAs for 29 claims because the HHAs had not
submitted accepted OASIS data for those claims. 9 For each of these claims, the State survey
agencies had rejected the OASIS data associated with the claims, and the HHAs had not resolved
the issue and resubmitted the OASIS data. The RHHI made $62,297 in Medicare overpayments
to HHAs for these 29 claims.

INADEQUATE INTERNAL CONTROLS

Home Health Agencies Did Not Ensure That Outcome and Assessment Information Set
Data Were Accepted Before Submitting Claims

HHAs often had inadequate controls for the submission, validation, and correction of the OASIS
data they submitted to the State survey agencies. Specifically, HHAs did not always (1) process
OASIS data in a timely manner, (2) develop procedures to obtain electronic copies of the final
validation reports from the State survey agency, (3) review the final validation reports to identify
rejected OASIS data, (3) reconcile the final validation reports to HHA system reports to verify
acceptance of the OASIS data, and (5) confirm the payment rates.

Medicare Did Not Have Adequate Payment Controls

Medicare payment controls were inadequate to prevent or detect payments to HHAs for claims
that were missing accepted OASIS data. Specifically, CMS had not implemented a process that
would allow the FISS to interface with State survey agencies to identify, on a prepayment basis,
HHA claims without accepted OASIS data. 10 Further, CMS had not established a unique
occurrence code to be recorded on the required CMS-1450 claim form to report the date that
State survey agencies accepted the OASIS submission. Lastly, the controls at the RHHI were
limited to postpayment reviews of a small percentage of claims to determine whether HHAs
submitted accepted OASIS data before payment. However, we acknowledge that postpayment
reviews can be costly and labor intensive and may not always ensure overpayment recoveries.

OVERPAYMENT ESTIMATES

We estimated that the RHHI made approximately $25.1 million in overpayments for claims that
HHAs submitted before OASIS data were accepted or without accepted OASIS data.




9
    HHAs had not submitted accepted OASIS data for these claims as of November 2012.
10
  Although we limited our review to claims processed and paid by one RHHI, the other three RHHIs also used the
FISS to process and pay claims.

Outcome and Assessment Information Set Review of New England
Home Health Agencies for Calendar Year 2010 (A-01-12-00508)                                                      4
                                            RECOMMENDATIONS

We recommend that CMS:

       •   adjust the 65 sampled claims for overpayments of $156,722 to the extent allowed under
           the law;

       •   consider reopening the 16,482 nonsampled claims of which 3,819 claims were paid
           before OASIS data were accepted and 12,663 did not match to OASIS data, 11 review our
           information on these claims, and recover any overpayments to the extent allowed under
           the law;

       •   complete the process that would allow the FISS to interface with State survey agency
           systems to identify, on a prepayment basis, HHA claims without accepted OASIS data
           submissions, which could have resulted in savings totaling $25.1 million during CY 2010
           for claims paid by one RHHI; and

       •   encourage RHHIs to conduct periodic postpayment reviews of HHA claims, which would
           include ensuring OASIS data supports claims, until sufficient prepayment controls are
           established.

           CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS AND
                    OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CMS fully concurred with our first and third
recommendations, partially concurred with our second recommendation, and did not concur with
our fourth recommendation. In addition, CMS did not concur with a recommendation included
in our draft report that CMS should establish an occurrence code to be recorded on the
CMS-1450 claim form for HHAs. We agreed with CMS’s rationale for not concurring with that
recommendation and have omitted it from this final report. CMS’s comments, excluding a
technical comment that we addressed, are included as Appendix D.

REOPEN NONSAMPLED CLAIMS AND RECOVER OVERPAYMENTS

CMS Comments

CMS agreed to conduct an analysis of the 12,663 nonsampled claims that did not match to
OASIS data to determine an appropriate number of claims to review. However, because our
review showed OASIS data were submitted and accepted after the RHHI paid the 3,819
remaining nonsampled claims, CMS did not concur with reopening them and cited its Program
Integrity Manual, which states that MACs may choose not to reopen claims when documentation
is received past the deadline.



11
     A Excel file of these transactions can be provided to support these nonsampled claims.

Outcome and Assessment Information Set Review of New England
Home Health Agencies for Calendar Year 2010 (A-01-12-00508)                                        5
Office of Inspector General Response

CMS’s intention to make OASIS submission a condition of payment is clear through its
regulations, rulemaking, and manual instructions. 12 As such, we do not agree with CMS’s
nonconcurrence regarding reopening the 3,819 claims in question. Section 3.2.3.9 of chapter 3
of the Program Integrity Manual, to which CMS cites, provides MACs with the discretion to
reopen denied claims; however, it does so in the context of instructing MACs how to respond to
the untimely submission of documents in a prepayment or postpayment review. By contrast, the
3,819 paid claims being questioned in this report are being questioned for failure to meet a
condition of payment; that is, because of the belated submission of OASIS data, these claims
have been determined by CMS in regulation to be ineligible for reimbursement. CMS stated in
its Federal Register notice 13 that “providers will ensure that prior to submitting a final HH PPS
[Home Health Prospective Payment System] episode claim, a provider will have submitted an
OASIS” and “[a]s such, we are implementing the provision to require the submission of OASIS,
for final claims, as a condition of payment.” Indeed, the chapter of the Program Integrity
Manual to which CMS cites to establish the MAC’s flexibility in prepayment and postpayment
reviews contains language in a separate paragraph that states clearly, “Beginning January 1,
2010, home health agencies (HHAs) are required to submit an OASIS as a condition for
payment. The MACs shall deny the claim if providers do not meet this regulatory requirement.”

In a subsequent discussion with officials from the CMS Office of Financial Management and the
Center for Medicare regarding CMS’s response to our report, the officials stated that if
prepayment controls, such as the interface between the FISS and the OASIS assessment
repository, were functioning at the time these HHA claims were submitted, the claims would not
have been paid because no OASIS data had been accepted and no adjustment or subsequent
claim payment would have been allowed. Therefore, we maintain that CMS should reopen the
3,819 claims that were paid before OASIS data were accepted and recover any overpayments
associated with them.

ENCOURAGE REGIONAL HOME HEALTH INTERMEDIARIES TO CONDUCT
PERIODIC POSTPAYMENT REVIEWS OF HOME HEALTH AGENCIES’ CLAIMS

CMS Comments

CMS did not concur with our recommendation that it encourage RHHIs to conduct periodic
postpayment reviews of HHA claims. CMS stated that MACs already review HHA claims on a
prepayment basis. Furthermore, CMS stated that it is enhancing the Medicare Contractors
Extract Systems, which will add more data fields to increase the probability of obtaining OASIS
data.




12
  42 CFR 484.210(e); 74 Fed. Reg. 58110 (Nov 10, 2009); and CMS, Program Integrity Manual, chapter 3,
§ 3.2.3.1.
13
     74 Fed. Reg. 58110 (Nov. 10, 2009).

Outcome and Assessment Information Set Review of New England
Home Health Agencies for Calendar Year 2010 (A-01-12-00508)                                             6
Office of Inspector General Response

The RHHI paid over 16,000 Medicare claims for which HHAs had not submitted the required
OASIS data. Until CMS establishes the interface between the FISS and the OASIS assessment
repositories, we maintain that RHHIs should augment prepayment reviews with postpayment
reviews of HHA claims.




Outcome and Assessment Information Set Review of New England
Home Health Agencies for Calendar Year 2010 (A-01-12-00508)                                 7
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We limited our review to Medicare payments made by HHAs in the six New England States
(Massachusetts, Connecticut, Maine, Vermont, Rhode Island, and New Hampshire) totaling
$1 billion with dates of service in CY 2010. Our audit covered 16,582 HHA claims totaling
$42.8 million that were at high risk of overpayments because our data match showed that OASIS
data were not submitted or were submitted and accepted but only after the RHHI paid the claims.

Our objective did not require an understanding or assessment of the complete internal control
structures of HHAs, CMS, the RHHI, or the State survey agencies. Therefore, we limited our
review at the HHAs to the controls related to submitting OASIS data and the corresponding
claims. We limited our review to one RHHI, one State survey agency, and CMS to those
controls relating to preventing and detecting Medicare overpayments.

Our fieldwork consisted of contacting selected HHAs in New England. We also contacted one
RHHI, the Massachusetts State survey agency, and the CMS regional office in Boston,
Massachusetts. We conducted our fieldwork from June through November 2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted specific types of HHA final action claims from CMS’s National Claims History
        file for CY 2010;

    •   obtained OASIS data submissions from CMS’s QIES for CY 2010;

    •   developed computer matches that compared the HHA claims and the OASIS data
        submissions and identified 12,733 claims with no OASIS data and 3,849 claims where
        the OASIS data were submitted after the claim was paid;

    •   selected a stratified random sample of 100 claims from the 16,582 claims (Appendix B);

    •   reviewed data from CMS’s Common Working File for the 100 claims to (1) validate
        claim information extracted from the National Claims History file, (2) verify that the
        HHAs were paid for claims that lacked accepted OASIS data, and (3) determine whether
        any of the selected claims had been canceled or adjusted;

    •   removed 35 claims from our sample (our match did not account for 14 claims for which
        HHAs submitted accepted OASIS data in CY 2011 for CY 2010 services; for 11 claims,



Outcome and Assessment Information Set Review of New England
Home Health Agencies for Calendar Year 2010 (A-01-12-00508)                                      8
         HHAs submitted accepted OASIS data more than 5 calendar days after the start of care; 14
         4 claims were under investigation by OIG; 3 claims had accepted OASIS data with
         missing social security numbers; and for 3 claims, we incorrectly identified that HHAs
         had not submitted accepted OASIS data);

     •   interviewed officials from CMS, the RHHI, and the Massachusetts State survey agency to
         better understand the OASIS data submission process and requirements;

     •   contacted officials from 39 HHAs that submitted the 100 claims to request supporting
         documentation for the OASIS data submission;

     •   reviewed the supporting documentation (i.e., final validation reports) obtained from the
         HHAs for their OASIS data submissions;

     •   worked with the CMS regional office to verify OASIS data submissions;

     •   estimated the total value of overpayments on the basis of our sample results
         (Appendix C); and

     •   discussed the results of our review with RHHI and CMS officials.

We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




14
   The HHAs that submitted these OASIS data did not comply with the timeframe for which HHAs must complete
the OASIS data as a condition of participation under § 484.55(b). However, these HHAs did comply with the
condition of payment which requires that HHAs submit accepted OASIS data before their claims are paid.

Outcome and Assessment Information Set Review of New England
Home Health Agencies for Calendar Year 2010 (A-01-12-00508)                                                  9
                   APPENDIX B: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of Medicare HHA claims processed by National Heritage Insurance
Corporation (NHIC) for services provided to beneficiaries in CY 2010.

SAMPLING FRAME

The sample frame was an Access file containing 16,582 HHA claims for which (1) 3,849 were
matched to OASIS data that were submitted after the claims were already paid and (2) 12,733
did not have OASIS data that matched. The value of the sampling frame is $42,780,651.

The sampling frame was the same as the target population.

SAMPLE UNIT

The sample unit was an HHA claim.

SAMPLE DESIGN

We used a stratified random sample with the following two strata:

                                Table 1: Stratified Random Sample

                                                                Number of   Dollar Value of
       Stratum           HHA Claim Categories                  HHA Claims    HHA Claims
           1             Claim Matched to OASIS                    3,849      $9,992,867
           2          Claim Not Matched to OASIS                  12,733     $32,787,784

         Total                                                    16,582     $42,780,651

SAMPLE SIZE

We randomly selected 30 claims from stratum 1 and 70 from stratum 2. Our total sample size
was 100 claims.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General (OIG), Office of Audit
Services (OAS), statistical software.




Outcome and Assessment Information Set Review of New England
Home Health Agencies for Calendar Year 2010 (A-01-12-00508)                                   10
METHOD OF SELECTING SAMPLE UNITS

We consecutively numbered the sample units in the frame for each of the two strata. After
generating 30 random numbers for stratum 1 and 70 random numbers for stratum 2, we selected
the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the dollar value of overpayments made to
HHAs for services provided to beneficiaries.




Outcome and Assessment Information Set Review of New England
Home Health Agencies for Calendar Year 2010 (A-01-12-00508)                                 11
                      APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                                           Table 2: Sample Results

                                                                                       HHA
                      Frame          Value of         Sample         Value of        Claims in         Value of
  Stratum              Size           Frame            Size          Sample           Error          Overpayments
     1                  3,849       $9,992,867          30            $76,230           25              $62,740

       2               12,733       32,787,784            70          154,953             40                93,982

    Total              16,582     $42,780,651           100          $231,183             65             $156,722



                                  Table 3: Estimated Overpayments
                        (Limits Calculated for a 90-Percent Confidence Interval)

                         Point estimate                              $25,144,922
                         Lower limit                                  20,445,315
                         Upper limit                                  29,844,530


Notice: This section recorded our results by stratum and it will not match precisely with the categories discussed in
this report’s findings.




Outcome and Assessment Information Set Review of New England
Home Health Agencies for Calendar Year 2010 (A-01-12-00508)                                                        12
 APPENDIX D: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

  DEPARTMENT OF HEALTH & HUMAN SERVICES                                Centers for Medicare & Medicaid Services


                                                                       Administrator
                                                                       Washington , DC 20201




DATE:             DEC - 9 2013
TO:              Daniel R. Levinson
                 Inspector General

FROM:


SUBJECT:         Office oflnspector General (OIG) Draft Report: "Medicare Often Made
                 Overpayments to New England Home Health Agencies for Claims Without
                 Required Outcome and Assessment Information Set Data " (A-01-12-00508)


The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
comment on the above subject OIG draft report. This report is a follow-up to OIG' s review,
issued in 2012, which disclosed that home health agencies (HHAs) nationwide did not submit
required Outcome and Assessment Information Set (OASIS) data for six percent ofHHA claims
in calendar year (CY) 2009, which represented over $1 billion in Medicare payments. In this
follow-up report, OIG reviewed one regional home health intermediary (RHHI) that processes
and pays HHA claims for six New England states to determine the extent to which it denied CY
2010 claims with missing OASIS data. The objective ofthis review was to determine whether
the RHHI made Medicare payments only for claims for which HHAs had submitted accepted
OASIS data.

 The CMS appreciates the time and resources OIG has invested to review this issue. CMS has
 reviewed the report and responded to the recommendations below.

 OIG Recommendation

 Adjust the 65 sampled claims for overpayments of$156,722 to the extent allowed under the law.

 CMS Response

 The CMS concurs with this recommendation. CMS has reviewed the OIG overpayment data for
 the 65 sample claims that should not have been paid and plans to recover the identified
 overpayments consistent with the agency' s policies and procedures.




Outcome and Assessment Information Set Review ofNew England                                      13
Home H ealth Agencies for Calendar Year 2010 (A -01-12-00508)
Page 2 - Daniel R. Levinson


OIG Recommendation

Consider re-opening the 16,482 non-sampled claims for which 3,819 claims were paid before
OASIS data were accepted and 12,663 claims that did not match to OASIS data, review our
information on these claims, and recover any overpayments to the extent allowed under the law.

CMS Response

The CMS partially concurs with this recommendation. CMS does not agree with re-opening the
3,819 claims that were paid before OASIS data was accepted since OIG's report showed OASIS
data was submitted and accepted after the RHHI paid the claims. The CMS Program Integrity
Manual (PIM) (Pub. 100-08) Ch. 3 §3.2.3.9 states that a Medicare Administrative Contractor
(MAC) can choose not to re-open claims when documentation is received past the
deadline. CMS requests that OIG furnish the necessary data (e.g., Medicare contractor numbers,
provider number, claims information including the paid date, claim number, Health Insurance
Claim Number, overpaid amount, etc.) to follow-up on the 12,663 claims that did not match the
OASIS data referenced in the draft report. In addition, CMS requests that current Medicare
contractor-specific data be sent through a secure portal to better facilitate the transfer of
information to the appropriate contractor.

Upon receipt of the files from OIG, CMS will conduct an analysis based on contractor resources
to determine an appropriate number of claims to review. CMS will instruct the contractor to
review the claims and take appropriate action.

OIG Recommendation

Complete the process that would allow the Fiscal Intermediary Shared System (FISS) to
interface with state survey agency systems to identify, on a prepayment basis, HHA claims
without accepted OASIS data submissions, which could have resulted in savings totaling $25.1
million during CY 2010 for claims paid by one RHHI.

CMS Response

The CMS concurs with this recommendation. Change Request 7760 was issued April27, 2012
to require Medicare contractors to create the claims/assessment interface:
http://www.cms.gov/Regulations-and-Guidance/Guidance/Transmittals/Downloads/R2458CP.pdf

The initial implementation is to link inpatient rehabilitation facility (IRF) claims and
assessments, consistent with other OIG recommendations. System programming to include
home health (HH) claims in the interface was part of this implementation, but was not activated.
Since this interface is a new and unique process for Medicare systems, Medicare is using an
incremental activation schedule to manage risk of unintended consequences.

All changes to Medicare's PISS were completed timely on October 1, 2012. However, the full
IRF interface was delayed due to electronic file transfer problems. Medicare worked through
2013 to resolve all systems issues and the process is nearly complete. Activation of the IRF
interface is expected in November 2013.



 Outcome and A ssessment Information Set R eview ofNew E ngland 
                                14
 Home H ealth A gencies for Calendar Ye ar 2010 (A-01-12-00508) 

Page 3 - Daniel R. Levinson


The CMS expects to activate the interface between the Medicare claims processing system and
assessment repositories for HH claims in April2014. Initially, the interface will be used to
validate the accuracy of payment group codes billed on HH claims. The interface will be
enhanced to include denial ofHH claims if OASIS assessments were not submitted in full
compliance with conditions ofpayment as soon as possible thereafter. Claim denials are being
implemented separately, again to manage risk and also to allow for appropriate provider
notification.

OIG Recommendation

Establish an occurrence code to be recorded on the CMS-1450 claim form for HHAs which
would include the date the OASIS data submission was accepted.

CMS Response

The CMS does not concur with this recommendation. Precedent for an assessment-related
occurrence code was established in 2011 when the National Uniform Billing Committee (NUBC)
created occurrence code 50- "Assessment Date." The long descriptor for occurrence code 50
reads "Code indicating an assessment date as defined by the assessment instrument applicable to
this provider type (e.g. Minimum Data Set (MDS) for skilled nursing)." This code could not be
used for this recommendation since the date the OASIS assessment was accepted is not part of
the assessment itself.

While CMS could approach NUBC for a similar code for the date the OASIS assessment was
accepted, we do not believe this would be the best approach. Requiring HHAs to report this
information on claims when the receipt date is on the OASIS assessment in CMS ' assessment
repositories would create an unnecessary provider reporting burden to supply duplicative data.
The assessment submission date is part of the response returned from the Quality Improvement
Evaluation System in the claims-assessment interface created by Change Request 7760. CMS
believes enforcement of assessment submissions based on this date can serve the same purposes
as an occurrence code.

DIG Recommendation

Encourage RHHis to conduct periodic postpayment reviews ofHHA claims, which would
include ensuring OASIS data supports claims, until sufficient prepayment controls are
established.

CMS Response

The CMS does not concur with this recommendation. MACs are already reviewing HHA claims
on a prepayment basis at this time. Furthermore, enhancements are being made to the Medicare
Contractors Extract Systems, such as adding more data fields to increase the probability of
locating the OASIS.




 Outcome and Assessment Information Set R eview ofNew England                                    15
 Home Health Agencies for Calendar Year 2010 (A-01-12-00508)
Page 4- Daniel R. Levinson


This will support the contractors' compliance reviews by increasing functional data or
combination of data to substantiate that an assessment was appropriated and timely submitted.




 Outcome andAssessment Information Set Review ofNew Eng land                                    16
 Home Health Agencies for Calendar Year 2010 (A-01-12-00508)
